No. 20-257

 

IN THE

Supreme Court of the United States

CHIPOTLE MEXICAN GRILL, INC., et al.,

Petitioners,
v.

MAXCIMO SCOTT, e¢ al.,
Respondents.

On Petition for a Writ of Certiorari to the
United States Court of Appeals
for the Second Circuit

BRIEF OF RETAIL LITIGATION CENTER, INC.,
AND RESTAURANT LAW CENTER AS
AMICI CURIAE SUPPORTING PETITIONERS

CERTIFICATE OF COMPLIANCE

As required by Supreme Court Rule 33.1(h), I certify that the document contains
3,294 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 1, 2020.

    

Colin Casey
Wilson-Epes Printing Co., Inc.
